No: 21IN THE SUPREME
COURT OF THE UNITED STATES

KHALED ELBEBLAWY,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

CERTIFICATE OF SERVICE

I certify that on this 21st day of April 2021, in accordance with SUP. CT.
R. 29, copies of the (1) Petition for Writ of Certiorari, (2) Motion for Leave to
Proceed In Forma Pauperis, (3) Certificate of Service, and (4) Declaration
Verifying Timely Filing, were served by regular mail for delivery within
three days upon the United States Attorney for the Southern District of
Florida, 99 N.E. 4th Street, Miami, Florida 33132-2111, and upon the
Solicitor General of the United States, Room 5614, Department of Justice,
950 Pennsylvania Avenue, N.W., Washington, D.C. 20530-0001.

SONIA ESCOBIO O’DONNELL
The O’Donnell Law Firm, P.A.

Miami, Florida
April 21, 2021

By:

s/ Sonia Escobio O’Donnell
Sonia Escobio O’Donnell
Counsel of Record for Petitioner
700 S. Royal Poinciana Blvd., Ste 705
Miami Springs, Florida 33166
(305) 640-8958

